           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


          ORGANIZATIONAL
          REPRESENTATIVE
         PAYEES REPORTING
       BENEFICIARIES’ DEATHS

      April 2008   A-01-06-15068



 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                SOCIAL SECURITY
MEMORANDUM

Date:      April 23, 2008                                                                     Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Organizational Representative Payees Reporting Beneficiaries’ Deaths
           (A-01-06-15068)


           OBJECTIVE

           Our objective was to determine whether organizational representative payees promptly
           notified the Social Security Administration (SSA) when beneficiaries in their care died.

           BACKGROUND
           SSA pays retirement, disability or survivor benefits to eligible individuals under Title II of
                                   1
           the Social Security Act. For individuals who are not able to manage or direct the
           management of their finances because of their age or mental and/or physical
           impairments, Congress granted SSA the authority to appoint representative payees to
           receive and manage the benefit payments on the beneficiary’s behalf. 2 A
           representative payee may be an individual or an organization. As of December 2005,
                                                                                         3
           approximately 5.1 million Title II beneficiaries had representative payees.

           Organizational representative payees are responsible for notifying SSA of any events
           that occur that may affect a beneficiary’s entitlement to benefits—including the death of
                         4
           a beneficiary. Any benefit payments issued to the organizations after the beneficiaries’
           deaths are considered overpayments. Further, section 201 of the Foster




           1
               The Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
           2
               The Social Security Act § 205(j)(1)(A), 42 U.S.C. § 405(j)(1)(A).
           3
               SSA, Annual Statistical Supplement, 2006, issued June 2007.
           4
               20 C.F.R. § 404.2035.
Page 2 - The Commissioner


Care Independence Act of 1999 gave SSA the authority to hold representative payees
liable for the repayment of the overpayments. 5 Therefore, SSA will pursue recovery
from the organizational payees.

The Social Security Protection Act of 2004 requires that SSA expand its monitoring
activities of certain representative payees, including organizational payees representing
50 or more beneficiaries (also referred to as volume payees) and all payees authorized
to collect a fee for service (FFS). 6 SSA’s payee monitoring program calls for reviews of
all volume payees, FFS payees and State mental institutions at least once every
3 years. In addition, the Agency also selects a random sample of payees not
scheduled for a triennial site review in that year. SSA also conducts targeted reviews
as needed (regardless of the number of beneficiaries served by the payee) in response
to events that may raise concerns about a payee’s performance or suitability. Payee
reviews include meetings with representatives from the organizations, assessments of
the payees’ recordkeeping, and interviews with the beneficiaries. (For additional
information on SSA’s representative payee monitoring activities, see Appendix B.)

To accomplish our objective, we identified 139 organizational representative payees—
from 1 of 20 Social Security number segments—that received 3 or more benefit
                                               7
payments after the deaths of 149 beneficiaries. We selected all 139 organizations for
detailed analysis. (For more information on our scope, methodology and estimation
results, see Appendix C.)

RESULTS OF REVIEW

We found that organizational representative payees did not always timely notify SSA
when beneficiaries in their care died and, as a result, benefits continued to be issued
after deaths. In addition, organizational payees did not always return all of the benefits
that were paid after the deaths of beneficiaries. Based on our review, we estimate the
Agency paid about 2,780 organizational payees approximately $10 million in benefits
after the deaths of about 2,980 beneficiaries. Of this amount, we estimate the Agency
discontinued efforts to recover about $901,040 that was paid to approximately
480 organizations. Furthermore, we found that the Agency did not always address
outstanding overpayments when organizational payee reviews were conducted.




5
    Pub. L. No. 106-169 § 201(a), amending the Social Security Act § 204(a)(2), 42 U.S.C. § 404(a)(2).
6
 Pub. L. No. 108-203 § 102(b), amending the Social Security Act § 205(j)(6), 42 U.S.C. § 405(j)(6). The
Social Security Protection Act of 2004 also requires that SSA expand its monitoring activities of individual
payees representing 15 or more beneficiaries.
7
  The last 2 digits of the Social Security number are randomly assigned and can contain digits “00” to “99.”
Social Security numbers can be categorized into 20 segments, each containing 5 sequential groups of
these digits. For this audit, we selected Social Security numbers ending with the digits “20” to “24.”
Page 3 - The Commissioner


PAYMENTS ISSUED AFTER DEATH

We found that the 139 organizational representative payees—from the 1 Social
Security number segment we reviewed—received $499,253 after the deaths of
149 beneficiaries. As of December 2007, SSA

 successfully recovered
                                             Status of Benefit Payments Issued After Death
  $426,773 (86 percent) from the                         as of December 2007
  organizations;
                                        Recovered                                Active
 was actively pursuing recovery of       86%                                   Recovery
  $26,982 (5 percent); and                                                       Efforts
                                                                                  5%
 was unsuccessful in recovering
                                                                         Recovery
  $45,498 (9 percent) that was                                          Unsuccessful
  incorrectly paid to the                                                   9%
  organizations.

The 149 deceased beneficiaries in our review continued to be paid between 3 and
22 months after their deaths, with an average of 5 months. The table below
summarizes the 149 beneficiaries by the number of monthly payments issued after
death.

                  Number of                Number of
                                                                      Percent
           Months Paid After Death        Beneficiaries
           3 to 6 months                          120                     80%
           7 to 10 months                          21                     14%
           11 to 14 months                           4                     3%
           15 to 18 months                           3                     2%
           19 to 22 months                           1                     1%
                    Total                         149                    100%

Funds Recovered or Active Recovery Efforts

SSA successfully recovered $426,773 from the organizations. In addition, the Agency
was actively pursuing recovery of $26,982 through repayment agreements and by
issuing billing notices to the organizations. Of this amount, SSA resumed recovery of
$12,734 due to our audit. For example, one organization was issued seven benefit
checks from May 2003 to November 2003 totaling $4,640 after the death of a
beneficiary. The organization initially agreed to repay the overpayment but only
returned $1,630 to SSA. Based on our audit, SSA resumed recovery of the
$3,010 overpayment balance not refunded by the organization.
Page 4 - The Commissioner


Recovery Efforts Unsuccessful

SSA did not recover $45,498 that was paid to organizational payees after the deaths of
beneficiaries. The Agency wrote off $446 that was paid to 2 organizations, but was
unsuccessful in recovering the remaining $45,052 that was incorrectly paid to 24 of the
                             8
organizations in our review.

For example, one organization was issued three benefit checks totaling $2,256 after a
beneficiary died in November 2003 but only returned $630 to SSA. The Agency sent
several notices to the organization requesting remittance of the additional $1,626 that
was issued after death. However, no further payments were remitted to SSA as of
December 2007.

In addition, we found that 22 of the 24 organizations continued to serve as
representative payees for other beneficiaries as of December 2007. According to SSA,
a representative payee that does not return all payments issued after death may not be
a suitable payee and should not be appointed unless there is no other suitable
applicant and the debt has been satisfied. 9 These facilities may not have adequate
controls over the funds they receive, or they may not be sufficiently involved with the
beneficiaries in their care to ensure their needs are met.

REPRESENTATIVE PAYEE MONITORING

Of the 139 organizations in our review, we identified 76 that did not timely report the
deaths of multiple beneficiaries in their care and/or did not return funds that were
incorrectly paid after death—despite SSA's attempts to recover the benefits. 10 We
researched available data on SSA's systems and contacted Agency personnel to
determine whether reviews of these 76 organizations were conducted under SSA’s
representative payee monitoring program. Of the 76 organizations, we found that




8
 This included four FFS payees that were bonded and did not refund $3,986. “A non-governmental FFS
organization must be bonded in order to be authorized by SSA to collect a fee. Bonding constitutes a
bond or insurance contract which protects the Representative Payee and SSA from financial loss caused
by the action or inaction of the organization, or corporate officer/owner(s), or an employee of the
organization.” (SSA, POMS, GN 00506.105.)
9
  SSA, POMS, GN 00502.132. SSA also issued a message to staff in February 2003 reminding them that
representative payees with outstanding overpayments resulting from benefit payments issued after death
may not be suitable payees (SSA, POMS, AM-03035).
10
   We considered organizations that reported at least two deaths untimely as reporting multiple deaths
late. For some organizations, this included deceased beneficiaries identified outside of the one segment
of the population we reviewed.
Page 5 - The Commissioner


         reviews were conducted for 43 organizations; 11
         reviews were scheduled in the future for 8 organizations; and
         no reviews were conducted or scheduled for the remaining 25 organizations.

Monitoring Reviews Conducted or Scheduled
                                                          12
In total, 43 of the 76 organizations were reviewed by SSA. Of these 43 organizations,
12 had outstanding overpayments (resulting from benefit payments issued after death)
at the time their reviews were conducted. However, SSA’s policy does not require that
outstanding overpayments owed by organizational payees be addressed when
monitoring reviews are conducted. 13 As a result, SSA personnel did not address the
outstanding overpayments for these 12 organizations during its reviews. 14

For example, one organization had an outstanding overpayment totaling $1,412 due to
the death of a beneficiary in 2002. SSA conducted a review of this organization in
July 2007 but did not address the outstanding overpayment. As of December 2007, the
funds were not returned to SSA, and this organization continued to serve as payee for
40 beneficiaries.

SSA planned to conduct reviews in the future for eight organizations. However, the
dates of these future reviews ranged from May 2008 to March 2010. For example, the
review of one organization was not scheduled until August 2008 even though the
organization had reported multiple deaths late and had an outstanding overpayment
totaling $1,448 due to the death of a beneficiary in 2003. As of December 2007, the
funds were not returned to SSA.

Organizations Not Covered Under SSA’s Monitoring Program

No reviews were conducted or scheduled for 25 organizations. For 22 of these
organizations, we found that the organizations represented fewer than
                                                                            15
50 beneficiaries—and therefore did not fall under SSA’s monitoring program.
However, SSA also conducts targeted reviews as needed (regardless of the number of
beneficiaries served by the payee) in response to events that may raise questions
11
     Of the 43 reviews conducted, 40 were conducted after the beneficiaries in our review died.
12
 The 43 organizational payees reviewed by SSA included 32 volume payees, 6 FFS payees and 5 State
mental institutions.
13
     SSA, POMS, GN 00605.
14
  We found that—when the reviews were conducted for 10 of the 12 organizations—SSA’s
Representative Payee System indicated that they did not return all payments that were issued after the
beneficiaries died.
15
  For the remaining 3 organizations, (a) 2 closed and no longer continued to serve as payees for SSA and
(b) 1 represented less than 50 beneficiaries at the time organizations were selected for review by the
Agency and therefore did not fall under SSA’s monitoring program. However, it had 54 beneficiaries in its
care as of December 2007.
Page 6 - The Commissioner


about a payee's performance or suitability. 16 According to SSA, representative payees
with outstanding overpayments resulting from payments issued after death may not be
                17
suitable payees. We found that no targeted reviews were conducted or scheduled for
these 22 organizations. 18 The table below summarizes the number of beneficiaries that
were served by these 22 organizations as of December 2007. 19

                     Number of                     Number of
                                                                             Percent
               Beneficiaries Served               Organizations
              1 to 9 beneficiaries                          3                     14%
              10 to 19 beneficiaries                        4                     18%
              20 to 29 beneficiaries                        8                     36%
              30 to 39 beneficiaries                        3                     14%
              40 to 49 beneficiaries                        4                     18%
                         Total                             22                    100%

CONCLUSION AND RECOMMENDATIONS
Organizational representative payees did not always timely notify SSA when
beneficiaries in their care died, and as a result, benefits continued to be issued for an
average of 5 months after death. In addition, we found that organizational payees did
not always return all of the benefits that were paid after death, even though the funds
were no longer needed to care for the beneficiaries. We estimate that, as of
December 2007, SSA was actively pursuing recovery of approximately $539,640 that
was paid to about 200 organizational payees after the beneficiaries died. However, we
estimate the Agency discontinued recovery efforts for an additional $901,040 that was
paid to about 480 organizations. Furthermore, we found that SSA did not always
address outstanding overpayments when organizational payee reviews were
conducted. Therefore, we recommend SSA:


16
  The 22 organizations included 9 that failed to return $9,369 to SSA. These nine organizations were
included in the one segment of the population we reviewed. We did not calculate amounts paid after
death for beneficiaries identified outside of the one segment we reviewed.
17
   SSA, POMS, AM-03035. Although SSA recognized representative payees with outstanding
overpayments resulting from payments issued after death may not be suitable payees, the Agency did not
consider outstanding overpayments as trigger events for targeted reviews. (SSA personnel met internally
in February 2008 to review the Agency’s policy regarding representative payees to determine whether
additional instructions were needed.)
18
  In a July 2007 study of representative payees—which included organizations serving fewer than
50 beneficiaries—the National Academy of Sciences recommended that SSA conduct targeted reviews of
those representative payees most likely to misuse benefits. Based on the report, SSA established a work
group to analyze the recommendations and develop an Agency plan. In addition, the Office of the
Inspector General is conducting analyses to determine whether certain characteristics of payees result in
an increased risk of misuse.
19
  These 22 organizational payees served a total of 542 beneficiaries. Each organization served an
average of 25 beneficiaries.
Page 7 - The Commissioner


   1. Continue to pursue recovery of any outstanding overpayments to organizational
      representative payees that resulted from benefits issued to the organizations
      after beneficiaries’ deaths.

   2. Require that outstanding overpayments owed by organizational payees are
      addressed when monitoring reviews are conducted.

   3. Conduct reviews for the 8 volume payees—and the 22 other organizations
      which represented less than 50 beneficiaries—to ensure the payees are
      performing their duties satisfactorily.

AGENCY COMMENTS
SSA agreed with the recommendations. (See Appendix D.)




                                            Patrick P. O’Carroll, Jr.
                                    Appendices
APPENDIX A – Acronyms

APPENDIX B – Representative Payee Monitoring

APPENDIX C – Scope, Methodology and Estimation Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                 Appendix A

Acronyms
C.F.R.        Code of Federal Regulations
FFS           Fee for Service
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
U.S.C.        United States Code
                                                                                      Appendix B

Representative Payee Monitoring
For individuals who are not able to manage or direct the management of their finances
because of their age or mental and/or physical impairments, Congress granted the
Social Security Administration (SSA) the authority to appoint representative payees to
receive and manage the benefit payments on the beneficiary’s behalf. 1 A payee may
be an individual or an organization.

Once representative payees are appointed, SSA monitors their performance to ensure
the payees are performing their duties satisfactorily. In assessing the performance of a
payee, SSA looks for indications that a payee is not performing its duties adequately.

Often when SSA discovers that a payee is performing poorly, SSA can help the payee
correct the poor performance by reacquainting the payee with the duties and
responsibilities of a payee, including the need to keep adequate records. Other times,
                                                                      2
the poor performance requires the removal of a representative payee.

Most representative payees are monitored through SSA’s annual accounting process.
This process requires that representative payees submit accounting forms annually.
These forms allow SSA to monitor how the payee spent and/or saved benefits on a
beneficiary’s behalf—and also to identify situations where the representative payee is
no longer suitable.

In addition to monitoring payee performance through the annual accounting process,
the Social Security Protection Act of 2004 required SSA to expand its monitoring
                                                                                3
activities to include periodic onsite reviews of certain representative payees.
Specifically, the legislation required SSA to expand its monitoring activities of all payees
authorized to collect a fee for service (FFS), organizational payees representing 50 or
more beneficiaries (or volume payees), and individual payees representing 15 or more
beneficiaries.




1
    The Social Security Act § 205(j)(1)(A), 42 U.S.C. § 405(j)(1)(A).
2
 SSA, Annual Report on the Results of Periodic Representative Payee Site Reviews and Other Reviews,
Fiscal Year 2006.
3
    Pub. L. No. 108-203 § 102(b), amending the Social Security Act § 205(j)(6), 42 U.S.C. § 405(j)(6).


                                                       B-1
REPRESENTATIVE PAYEE REVIEWS

SSA’s representative payee monitoring program includes the following reviews.
 Triennial Site Reviews. At least once every 3 years, SSA monitors the
  performance of volume and FFS payees through a face-to-face meeting with the
  payee and an examination of beneficiary records. The review also includes an
  assessment of the payee’s recordkeeping and includes interviews with beneficiaries.
 Random Reviews. Each year, SSA selects a sample of 15 percent of volume and
  FFS payees that are not scheduled for a triennial site review in that year. These
  reviews are an SSA initiative. SSA examines selected beneficiary records to
  determine the payee’s compliance with representative payment policies and
  procedures. The review also includes beneficiary interviews.
 Targeted Reviews. SSA conducts targeted reviews as needed in response to an
  event that may raise a question about the payee’s performance or suitability.
  Examples of events that may trigger a targeted review include allegations of misuse
  or improper use of benefits from a beneficiary or third party, failure to pay a vendor,
  reports of employee theft, adverse media coverage, and investigation of the payee
  by another governmental agency.
 State Onsite Reviews. SSA conducts triennial reviews of State mental institutions
  under its Onsite Review Program. These reviews evaluate the fiduciary performance
  of State mental institutions serving as representative payees for SSA beneficiaries.
 Educational Visits. SSA conducts educational visits with new FFS payees
  6 months after they are authorized to collect a fee. The objective of the educational
  visit is to ensure that new payees fully understand their responsibilities. Educational
  visits are also made for other types of payees. For example, an educational visit
  may be made to a volume payee if SSA learns the payee had changes in key
  personnel.

ADDITIONAL MONITORING ACTIVITIES

To assist in the monitoring of organizational representative payees, SSA:
   Created a training kit for organizational representative payees.
   Provided SSA field personnel with updated instructions to assist in conducting more
    thorough reviews.
   Revised the annual accounting forms used for FFS and organizational payees to
    detect those incorrectly charging a FFS.
   Contracted with accounting firms to assist in some reviews of payees that serve a
    large number of beneficiaries, have complex record systems, or are suspected of
    misuse.
   Produced training videos for representative payees on best recordkeeping practices
    and for SSA staff on reviewing payee records.



                                            B-2
                                                                                     Appendix C

Scope, Methodology and Estimation Results
To accomplish our objective, we:
     Reviewed applicable sections of the Social Security Act, and Social Security
      Administration (SSA) regulations, policies and procedures.
     Obtained a file of Title II beneficiaries from 1 of 20 Social Security number
      segments whose benefits were sent to organizational representative payees and
      who died between January 2000 and May 2006. 1
     Identified 139 organizational representative payees that received 3 or more
      benefit payments after the deaths of 149 beneficiaries. For all 139 cases, we
      analyzed information available on the Agency’s systems and requested the
      assistance of SSA’s Office of Operations to determine whether
             organizational representative payees promptly notified SSA when
              beneficiaries in their care died;
             benefit payments issued after the beneficiaries’ deaths were properly
              recorded and recovered; and
             the Agency conducted reviews of organizational representative payees
              that reported multiple deaths late and/or failed to return all payments
              issued after death.

We performed our audit between February and December 2007 in Boston,
Massachusetts. We tested the data obtained for our audit and determined them to be
sufficiently reliable to meet our objective. The principal entities audited were SSA’s
field offices and program service centers under the Deputy Commissioner for
Operations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




1
  The last 2 digits of the Social Security number are randomly assigned and can contain digits “00” to “99.”
Social Security numbers can be categorized into 20 segments, each containing 5 sequential groups of
these digits. For this audit, we selected Social Security numbers ending with the digits “20” to “24.”


                                                    C-1
ESTIMATION RESULTS

                                                                        Results in         Estimate to
    Table 1 - Beneficiaries
                                                                        1 Segment         20 Segments
    Number of beneficiaries whose deaths were not reported timely
                                                                                 149               2,980
      to SSA by their organizational representative payees



                                                                        Results in         Estimate to
    Table 2 – Amounts Paid After Beneficiaries’ Deaths
                                                                        1 Segment         20 Segments
                                        2
    SSA discontinued recovery efforts                                        $45,052           $901,040
    SSA was actively pursuing recovery                                       $26,982           $539,640
    SSA wrote off                                                               $446             $8,920
    Sub-Total: Benefits Not Returned to SSA                                  $72,480         $1,449,600
    SSA successfully recovered                                              $426,773         $8,535,460
    Total: All Benefits Paid After Beneficiaries’ Deaths                    $499,253         $9,985,060
      Results as of December 2007.



                                                                        Results in         Estimate to
    Table 3 – Organizations
                                                                        1 Segment         20 Segments
    Number of organizations that did not timely report beneficiaries’
                                                                                 139               2,780
      deaths to SSA
    Number of organizations for which SSA was actively pursuing
                                                                                     10             200
      recovery
    Number of organizations for which SSA discontinued recovery
              2                                                                      24             480
      efforts
      Results as of December 2007.




2
 We concluded that SSA discontinued recovery efforts if the Agency did not take any action on an
overpayment in the last 90 days.


                                                       C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM


Date:      April 04, 2008                                                         Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster         /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Organizational Representative Payees
           Reporting Beneficiaries’ Deaths” (A-01-06-15068)—INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the recommendations
           are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“ORGANIZATIONAL REPRESENTATIVE PAYEES REPORTING BENEFICIARIES’
DEATHS” (A-01-06-15068)

Thank you for the opportunity to review and provide comments on this draft report.

Recommendation 1

Continue to pursue recovery of any outstanding overpayments to organizational representative
payees that resulted from benefits issued to the organizations after beneficiaries’ deaths.

Comment

We agree. We will continue to follow-up with the organizational payees to recover debts owed
to us.

Recommendation 2

Require that outstanding overpayments owed by organizational payees are addressed when
monitoring reviews are conducted.

Comment

We agree. We believe the current policy instructions, contained in Program Operations Manual
System GN 00605.421 and GN 00605.420C.14e, provide sufficient guidance for reviewers
regarding the identification and review of overpayments made to payees due to the death of a
beneficiary. We will determine the best way to ensure that employees identify overpayments at
the time of site reviews, and we will either clarify our current instructions or issue additional
guidance to our field offices and site reviewers.

Recommendation 3

Conduct reviews for the 8 volume payees—and the 22 other organizations which represented less
than 50 beneficiaries—to ensure the payees are performing their duties satisfactorily.

Comment

We agree. This workload has already been sent to the respective regions for handling.




                                               D-2
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division, (617) 565-1765

   Jeffrey Brown, Audit Manager, (617) 565-1814


Acknowledgments

In addition to those named above:

   Kevin Joyce, IT Specialist

   Melinda Tabicas, Senior Auditor

   Toni Paquette, Program Analyst

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-06-15068.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                     Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of
Investigations (OI), Office of the Chief Counsel to the Inspector General (OCCIG), Office of External
Relations (OER), and Office of Technology and Resource Management (OTRM). To ensure compliance
with policies and procedures, internal controls, and professional standards, the OIG also has a
comprehensive Professional Responsibility and Quality Assurance program.
                                            Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs
and operations and makes recommendations to ensure program objectives are achieved effectively and
efficiently. Financial audits assess whether SSA’s financial statements fairly present SSA’s financial
position, results of operations, and cash flow. Performance audits review the economy, efficiency, and
effectiveness of SSA’s programs and operations. OA also conducts short-term management reviews and
program evaluations on issues of concern to SSA, Congress, and the general public.
                                       Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and
operations. This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA
employees performing their official duties. This office serves as liaison to the Department of Justice on
all matters relating to the investigation of SSA programs and personnel. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.
                    Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCCIG also advises the IG on investigative procedures
and techniques, as well as on legal implications and conclusions to be drawn from audit and investigative
material. Also, OCCIG administers the Civil Monetary Penalty program.
                                    Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news
releases and in providing information to the various news reporting services. OER develops OIG’s media
and public information policies, directs OIG’s external and public affairs programs, and serves as the
primary contact for those seeking information about OIG. OER prepares OIG publications, speeches,
and presentations to internal and external organizations, and responds to Congressional correspondence.
                       Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also
coordinates OIG’s budget, procurement, telecommunications, facilities, and human resources. In
addition, OTRM is the focal point for OIG’s strategic planning function, and the development and
monitoring of performance measures. In addition, OTRM receives and assigns for action allegations of
criminal and administrative violations of Social Security laws, identifies fugitives receiving benefit
payments from SSA, and provides technological assistance to investigations.
